                                                 NATIONAL SCIENCE FOUNDATION
                                                 OFFICE OF INSPECTOR GENERAL
                                                   OFFICE OF INVESTIGATIONS

                                               CLOSEOUT MEMORANDUM

 Case Number: A11020011                                                          Page 1 of 2


          We requested a universityl conduct an Inquiry to into several allegations against
          one of its faculty members (the subject) 2 supported by NSF. The university
          assigned a committee to examine the allegations, which were 1) plagiarism in an
          article3; 2) misrepresentation of research in that same article; 3) falsification of
          figures (images) in a paper 4 ; and 4) misrepresentation of research equipment and
          laboratory environment in that same paper.
          Regarding the plagiarism (1), the committee learned the university had already
          investigated this matter and taken appropriate action. The first author, not the
          subject, was responsible for the plagiarism; the university reprimanded that
          individual, and the article was withdrawn. Documentation supporting the previous
          action was supplied to the committee (and us). Accordingly, it dismissed this
          allegation. We concurred.
         Allegation (2) had been addressed and dismissed during the university's
         preliminary review. The committee agreed with that conclusion and dismissed this
         allegation as well. We independently reviewed the article and found none of the
         alleged misrepresentation, so we agreed with the conclusion as well.
          For the alleged image falsification (3), the specific allegation was that the subject
          had taken multiple images, merged them together, and misrepresented that as a
          single image for three images in the paper. The committee noted for two images
          that certain physical characteristics of the imaged object were present in the
          published image, and also in multiple raw images taken under different conditions,
          in such a way that they could not have been falsified. Thus, the committee
          concluded a preponderance of evidence did not support the allegation.             We
          concurred, but noted the committee did not address one of the allegedly falsified
          figures, so we asked it to specifically address that figure. The committee concluded
          this figure was a combination of two images, but this published image was only
          representative of a process, and the image itself was not falsified. We agree with
          the committee's conclusion about the three images.
          With respect to the alleged misrepresentations (4), the committee interviewed lab


               1   [redacted]
               2   The subject is [redacted]
               3
               [redacted]
               4

               [redacted]



NSF OIG Fonn 2 (I 1/02)
                                      NATIONAL SCIENCE FOUNDATION
                                      OFFICE OF INSPECTOR GENERAL
                                        OFFICE OF INVESTIGATIONS

                                 CLOSEOUT MEMORANDUM

Case Number: A11-11                                                          Page 2 of2


    personnel and obtained information from the equipment manufacturer about the
    equipment's capabilities. It concluded the equipment could perform as the subject
    described in the paper. It likewise concluded the subject's description of the
    laboratory environment was accurate. We concurred with the committee about the
    equipment usage, but did not follow the committee's reasoning about the laboratory
    environment, so we asked for clarification. The committee provided an expanded
    explanation about its conclusions and provided pictures of its inspection of the
    laboratory supporting its conclusions. We agreed with the committee that a
    preponderance of evidence does not support this allegation.
    Thus, the committee dismissed two of the allegations and concluded there was
    insufficient evidence supporting the remaining two allegations. Based on the
    university's inquiry and clarification, we concur with all the university's conclusions
    regarding the allegations. Accordingly, this case is closed with no further action
    taken.
